No. 21-145

In the

Supreme Court of the United States
GORDON COLLEGE, et al.,
Petitioners,
v.
MARGARET DEWEESE-BOYD,
Respondent.
On Petition for Writ of Certiorari to the
Massachusetts Supreme Judicial Court
BRIEF OF AMICI CURIAE BILLY
GRAHAM EVANGELISTIC ASSOCIATION,
SAMARITAN’S PURSE, CONCERNED WOMEN
FOR AMERICA, THE FAMILY FOUNDATION,
ILLINOIS FAMILY INSTITUTE,
INTERNATIONAL CONFERENCE OF
EVANGELICAL CHAPLAIN ENDORSERS,
NATIONAL LEGAL FOUNDATION, AND
PACIFIC JUSTICE INSTITUTE
in Support of Petitioners
Steven W. Fitschen
James A. Davids
The National Legal
Foundation
524 Johnstown Road
Chesapeake, Va. 23322
(757) 463-6133

Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com

(i)
TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................... ii
STATEMENTS OF INTEREST ................................. 1
SUMMARY OF ARGUMENT .................................... 4
ARGUMENT ............................................................... 5
I.

The Religion Clauses Prohibit Governmental
Personnel from Interfering with a Religious
Organization’s Good-Faith Determination of
Which Employees Must Conform to the
Organization’s Religious Beliefs and
Practices for It to Carry Out Its Ministry
Purposes ............................................................... 5

II. This Case Shows Why Deference to Religious
Organizations’ Views of Who Is a “Minister”
Is Required Under the Religion Clauses ............ 8
CONCLUSION.......................................................... 12

(ii)
TABLE OF AUTHORITIES
Cases
DeWeese-Boyd v. Gordon Coll.,
487 Mass. 31 (2021)................................................. 9
Hosanna-Tabor Evan. Lutheran Church and
Sch. v. EEOC, 565 U.S. 171 (2012) ................ passim
Int’l Soc’y for Krishna Consciousness, Inc. v.
Barber, 650 F.2d 430 (2d Cir. 1981) ..................... 11
Kedroff v. St. Nicholas Cathedral, 344
U.S. 94 (1952) ................................................ 6, 7, 10
Our Lady of Guadalupe School v. MorrisseyBerru, 140 S. Ct. 2049 (2020)......................... passim
Reed v. Faulkner, 842 F.2d 960 (7th Cir. 1988) ....... 11
Serbian Orthodox Diocese vs. Milivojevich,
426 U.S. 696 (1976) ........................................... 6, 10
Sterlinski v. Catholic Bishop of Chicago,
934 F.3d 568 (7th Cir. 2019) ................................. 11
United States vs. Seeger, 380 U.S. 163 (1965) ......... 11
Watson v. Jones, 80 U.S 679 (1871) ................. 6, 7, 10
Other Authorities
Nathan S. Chapman, Adjudicating Religious
Sincerity, 92 Wash. L. Rev. 1185 (2017)............... 11

1
STATEMENTS OF INTEREST 1
The Billy Graham Evangelistic Association
(BGEA) was founded by Billy Graham in 1950 and,
continuing the lifelong work of Billy Graham, exists to
support and extend the evangelistic calling and ministry of Franklin Graham by proclaiming the Gospel
of the Lord Jesus Christ to all we can by every effective means available to us and by equipping the
church and others to do the same. BGEA ministers to
people around the world through a variety of activities
including Decision America Tour prayer rallies, evangelistic festivals and celebrations, television and internet evangelism, the Billy Graham Rapid Response
Team, the Billy Graham Training Center at the Cove,
and the Billy Graham Library. Through its various
ministries and in partnership with others, BGEA intends to represent Jesus Christ in the public square;
to cultivate prayer, and to proclaim the Gospel. BGEA
believes its mission to be primarily a spiritual endeavor and further believes that, to fulfill its mission,
its employees must share its religious beliefs and
acknowledge that those beliefs are put into action
through their employment with BGEA in pursuit of its
religious mission and objectives.
Samaritan’s Purse is a nondenominational,
evangelical Christian organization formed in 1970 to
provide spiritual and physical aid to hurting people
All parties have filed consents. No party or party’s counsel
authored this brief in whole or in part or contributed money
that was intended to fund its preparation or submission,
and no person other than Amici Curiae, their members, or
their counsel contributed money that was intended to fund
the preparation or submission of this brief.
1

2
around the world. The organization seeks to follow the
command of Jesus to “go and do likewise” in response
to the story of the Samaritan who helped a hurting
stranger. Samaritan’s Purse operates in over 100
countries providing emergency relief, community development, vocational programs and resources for
children, all in the name of Jesus Christ. Samaritan’s
Purse’s concern arises when government hostility prevents persons of faith from practicing core aspects of
faith such as prayer, discipleship, evangelism, acts of
charity for those in need, or other day-to-day activities
of those practicing their sincerely held religious beliefs.
Concerned Women for America (CWA) is the
largest public policy organization for women in the
United States, with approximately half a million supporters from all 50 States. Through its grassroots organization, CWA encourages policies that strengthen
women and families and advocates for the traditional
virtues that are central to America’s cultural health
and welfare, including religious liberties. CWA actively promotes legislation, education, and policymaking consistent with its philosophy. Its members are
people whose voices are often overlooked—everyday,
middle-class American women whose views are not
represented by the powerful elite.
The Family Foundation (TFF) is a Virginia nonpartisan, non-profit organization committed to promoting strong family values and defending the sanctity of human life in Virginia through its citizen advocacy and education. TFF serves as the largest profamily advocacy organization in Virginia. Its interest
in this case is derived directly from its concern to preserve religious freedom for all.

3

The Illinois Family Institute (IFI) is a nonprofit
educational and lobbying organization based in Tinley
Park, Illinois, that exists to advance life, faith, family,
and religious freedom in public policy and culture
from a Christian worldview. A core value of IFI is to
uphold religious freedom and conscience rights for all
individuals and organizations.
The International Conference of Evangelical
Chaplain Endorsers (ICECE) has as its main function to endorse chaplains to the military and other organizations requiring chaplains that do not have a denominational structure to do so, avoiding the entanglement with religion that the government would otherwise have if it determined chaplain endorsements.
ICECE safeguards religious liberty for all.
The National Legal Foundation (NLF) is a public interest law firm dedicated to the defense of First
Amendment liberties and the restoration of the moral
and religious foundation on which America was built.
The NLF and its donors and supporters, including
those in Massachusetts, seek to ensure that a historically accurate understanding of the Religion Clauses
is presented to our country’s judiciary.
The Pacific Justice Institute (PJI) is a nonprofit legal organization established under section
501(c)(3) of the Internal Revenue Code. Since its
founding in 1997, PJI has advised and represented in
court and administrative proceedings thousands of individuals, businesses, and religious institutions, particularly in the realm of First Amendment rights. As
such, PJI has a strong interest in the development of
the law in this area.

4

SUMMARY OF ARGUMENT
This Court in Hosanna-Tabor Evangelical Lutheran Church and School v. EEOC, 565 U.S. 171
(2012), and Our Lady of Guadalupe School v. Morrissey-Berru, 140 S. Ct. 2049 (2020), endorsed the “ministerial exception” as required by the First Amendment’s Religion Clauses and recognized that the exception broadly applies to all religious institutions. In
those decisions, this Court settled some key issues,
but left many unanswered, including the critical question of how much deference should be granted to religious institutions in determining which of its employees must conform to its belief and practices and, thus,
to qualify for the “ministerial” exception.
This case presents this Court with an opportunity
to clarify that the government’s judicial officers
should defer to the good-faith understanding of a religious organization as to who qualifies for the exception. Such deference would vindicate the overriding
intent of the Religion Clauses that courts refrain from
second-guessing decisions made by religious institutions about whom they employ to support their mission. This has full applicability to the faculty of religious schools.

5
ARGUMENT
I.

The Religion Clauses Prohibit Governmental Personnel from Interfering with a
Religious Organization’s Good-Faith Determination of Which Employees Must
Conform to the Organization’s Religious
Beliefs and Practices for It to Carry Out
Its Ministry Purposes

All manner of religious organizations exist in
America. Some are traditional churches, synagogues,
and mosques with formal worship services and a strict
hierarchy. Others operate independently with little
formal structure or supervision. Still others operate
medical or food service missions, schools, or missionary ministries. Amici represent many of these different types of organizations. All of these diverse organizations operate their missions through people. Many
religious organizations, including Amici, have a goodfaith, sincere belief that the best way for them to fulfill
their mission is to associate with employees who are
faithful, both in belief and conduct, to the organization’s doctrines and purposes.
In Hosanna-Tabor, the Court found that the Religion Clauses protected a Lutheran school from claims
of discrimination when it terminated its school
teacher. 565 U.S. at 192. While the Court outlined
multiple factors that supported its decision, it fundamentally held that “imposing an unwanted minister”
on a religious organization would violate both the Free
Exercise Clause, which guarantees to a religious
group the “right to shape its own faith and mission,”
and the Establishment Clause, which “prohibits

6
government involvement in such ecclesiastical decisions.” Id. at 188-89.
In Our Lady of Guadalupe, this Court emphasized
that the organization bestowing the title of “minister”
on its employee was not critical for application of the
ministerial exception. Instead, this Court explained
that “[w]hat matters, at bottom, is what an employee
does.” 140 S. Ct. at 2064. In making this determination, this Court stated that it would defer to the religious institution’s judgment:
[T]he schools’ definition and explanation of their
roles is important. In a country with the religious
diversity of the United States, judges cannot be
expected to have a complete understanding and
appreciation of the role played by every person
who performs a particular role in every religious
tradition. A religious institution’s explanation of
the role of such employees in the life of the religion in question is important.
Id. at 2066. This deference precluded second-guessing
the organization’s judgment that an employee needed
to, but did not, adhere to the faith and practice requirements of the religious group, as this “would risk
judicial entanglement in religious issues.” Id. at 2069.
Such deference is consistent with the Court’s historic religious freedom jurisprudence. In Watson v.
Jones, 80 U.S 679 (1871), Kedroff v. Saint Nicholas
Cathedral, 344 U.S. 94 (1952), and Serbian Orthodox
Diocese vs. Milivojevich, 426 U.S. 696 (1976), this
Court consistently and strongly affirmed that religious groups have the right to determine their own
rules and mission without oversight by secular

7
authorities. This Court made these determinations in
the context of some of the most contentious issues of
the day. In Watson, this Court deferred to religious
authorities in a case originating out of a slavery dispute that spanned the Civil War. Despite the compelling state interest, this Court deferred to religious authorities, noting that the church is the exclusive judge
of religious issues within its own jurisdiction and that
the decision of a religious authority on such questions
is binding on the secular courts. 80 U.S. at 728-36. In
Kedroff, this Court faced a dispute between American
and avowedly pro-communist Soviet churches during
the height of the Cold War. The Court ruled in favor
of the pro-Soviet church, explaining that the New
York legislature’s decision to favor the American
church improperly “intrude[d] for the benefit of one
segment of a church the power of the state into the
forbidden area of religious freedom contrary to the
principles of the First Amendment.” 344 U.S. at 119.
Justice Thomas captured well this Court’s historic
approach to such church-state issues in his concurrences in Hosanna-Tabor and Our Lady of Guadalupe.
In those opinions, he stated that the “Religion Clauses
require civil courts to defer to religious organizations’
good-faith claims that a certain employee’s position is
ministerial.” Our Lady of Guadalupe, 140 S. Ct. at
2069-70 (Thomas, J., concurring); see also HosannaTabor, 565 U.S. at 196 (Thomas, J., concurring). Justice Thomas, therefore, rightly limited his inquiry to
whether the religious groups asserted in good faith
that the worker needed to believe and exercise the
faith consistently with that espoused by the organization in order for it to carry out its religious mission to
the best of its ability.

8
II.

This Case Shows Why Deference to Religious Organizations’ Views of Who Is a
“Minister” Is Required Under the Religion
Clauses

This case is a perfect illustration of the need for
this Court to adopt the deferential approach indicated
by this Court in Our Lady of Guadalupe and explicitly
called for by Justice Thomas’ concurrences in Hosanna-Tabor and Our Lady of Guadalupe. Professor
Deweese-Boyd alleged that Gordon College had refused her promotion in violation of anti-discrimination
laws because of her advocacy on behalf of the LGBTQ+
community. Gordon was founded in 1889 as an evangelical, Bible-focused, Christian college, and continues
as such. Gordon mandates that faculty sign a religious
statement of faith and expects professors to integrate
historic Christian faith into their teaching and scholarship. That Gordon believes in good faith that its faculty members must act consistently with its religious
purposes in both faith and practice is not challenged.
Indeed, it is hard to imagine how Gordon could continue to be the same organization if it had no religious
control over its faculty.
Despite conceding that Gordon is a “Christian community”; that Gordon required, and Deweese-Boyd
signed, a statement of faith; and that Deweese-Boyd’s
seminary attendance played a role in Gordon’s decision to hire her, the Massachusetts Supreme Judicial
Court did not defer to Gordon’s good-faith belief that
Deweese-Boyd was an employee covered by the ministerial exception. Instead, it held that the exception did
not apply to her, even though “Deweese-Boyd was expected and required to be a Christian teacher and

9
scholar.” DeWeese-Boyd v. Gordon Coll., 487 Mass. 31,
54 (2021).
In so doing, the court relied upon several factors
that demonstrated its lack of understanding of how
Gordon, and many other religious colleges, view their
mission. For example, the court focused on the fact
that Deweese-Boyd was a social work professor, which
the court viewed as a secular discipline, not one that
directly involved spiritual or religious activities. Id. at
32-33. The court drew a distinction between a “Christian teacher and scholar” and a “minister,” despite
Gordon’s clearly stated desire that its professors integrate their Christian faith into their scholarship, regardless of the discipline taught by the professor. Id.
at 54. This is precisely the kind of distinction that this
Court warned about in Our Lady of Guadalupe when
it instructed courts not to interfere with the “religious
diversity” of the U.S. by second-guessing a religious
institution’s decisions. 140 S. Ct. at 2066. 2
Not only is it clear that the Massachusetts Supreme Judicial Court erred in its determination that
Deweese-Boyd was not an integral part of Gordon’s religious mission, it is also evident that the court’s analytical framework was problematic. This Court should
accept the petition to clarify that courts should not
The Massachusetts Supreme Judicial Court also
placed heavy emphasis on Deweese-Boyd’s lack of ordination or formal religious training. Deweese-Boyd, 487 Mass.,
at 37, 40, 50-53. This is directly contrary to this Court’s
statements in Our Lady of Guadalupe that a lack of formal
training or title should not be barriers to application of the
ministerial exception. 140 S. Ct. at 2064.
2

10
undertake to determine which positions are sufficiently “religious” or “important” to merit application
of the ministerial exception. This type of analysis will,
as the Massachusetts Supreme Judicial Court’s analysis did, take from religious colleges the ability to determine who is best suited to defend and teach its
faith tradition. If this Court does not act, the result
will often be that a college will be forced to promote or
retain a professor (like Deweese-Boyd) who, in the institution’s view, expressly advocates for a position
contrary to the religious beliefs central to its mission.
That is exactly the sort of religious interference that
this Court in Hosanna-Tabor, Our Lady of Guadalupe, Watson, Kedroff, and Milivojevich prohibited.
In Hosanna-Tabor, Justice Thomas warned that a
rule that encouraged judicial entanglement in religious decision-making would cause religious institutions to adjust their practices to obtain favorable results. Hosanna-Tabor, 565 U.S. at 197. This case also
illustrates that risk. Apparently in reaction to this
Court’s ruling in Hosanna-Tabor, Gordon clarified in
its faculty handbook that it considered professors to
be “ministers.” The Massachusetts Supreme Judicial
Court appeared to view that insertion as a subterfuge,
pointing out that Gordon’s counsel had made the
change over objections of some of the faculty. 487
Mass. at 37-38, 49-50. The negative inference drawn
by the lower court demonstrates that Justice Thomas’
concern was well-founded:
uncertainty about whether its ministerial designation will be rejected, and a corresponding
fear of liability, may cause a religious group to
conform its beliefs and practices regarding

11
“ministers” to the prevailing secular understanding.
Hosanna-Tabor, 565 U.S. at 197. In this case, Gordon
tried “to conform its practices” to a court decision and
was apparently penalized for doing so. The give-andtake over the term “minister” between Gordon’s faculty and its counsel, see Deweese-Boyd, 487 Mass., at
37-38, reflects only on different legal and religious
uses of the term and demonstrates the wisdom of relabeling the “ministerial exception” to indicate the legal concept’s greater scope. See Our Lady of Guadalupe, 140 S. Ct. at 2060-61 (noting that the “so-called
ministerial exception” is based on the principle of the
autonomy of religious organizations and sweeps
broader than classically defined ministers).
One potential criticism of the “good-faith understanding” test is that it will allow religious organizations almost unbridled discretion. But this is not actually the case, as it is well established that adjudicating
questions of the sincerity of religious claims is justiciable. See United States vs. Seeger, 380 U.S. 163, 18385 (1965); Int’l Soc’y for Krishna Consciousness, Inc. v.
Barber, 650 F.2d 430, 441 (2d Cir. 1981); see also Nathan S. Chapman, Adjudicating Religious Sincerity,
92 Wash. L. Rev. 1185, 1231-39 (2017). Courts routinely determine religious sincerity in draft exemption, prison accommodation, and Religious Freedom
Restoration Act claims. See, e.g., Seeger, 380 U.S. at
183-85; Sterlinski v. Catholic Bishop of Chicago, 934
F.3d 568, 571 (7th Cir. 2019) (noting that courts are
competent in "separating pretextual justifications
from honest ones"); Reed v. Faulkner, 842 F.2d 960,
963 (7th Cir. 1988); Krishna, 650 F.2d at 441. Courts
applying the “good-faith understanding” test to

12
ministerial exception claims can and should undertake that same analysis.
Amici represent a broad spectrum of beliefs and
practices with respect to religious employment, but
they share in the reality that all of their actions and
missions depend upon the people they hire. Amici’s decisions about which employees to employ must adhere
to the organization’s beliefs and practices to allow the
organizations to best serve their religious purposes.
Such decisions are reserved to the religious organizations by both the Free Exercise and Establishment
Clauses. It lies at the core of the church autonomy doctrine.
While the Court’s decisions in Hosanna-Tabor and
Our Lady of Guadalupe were a welcome affirmation
that the Religion Clauses allow religious organizations to make decisions about at least some of their
employees without interference, this case demonstrates that, without further guidance from this
Court, even longstanding institutions with clear policies cannot reliably decide who is to teach and defend
their faith consistent with their principles and beliefs
when that decision is left in the hands of judges, rather than their own. Governmental actors are no better equipped to decide which employees must conform
to an organization’s principles for it to best satisfy its
religious mission than they are to determine whether
an employee has violated those religious principles.
CONCLUSION
This Court should grant the petition and reverse
the decision of the Massachusetts Supreme Judicial
Court. This Court should make clear that it will defer

13
to a religious institution’s good-faith understanding of
who qualifies as a “minister” for the exception’s purposes before further encroachments are made upon
the freedoms of religious organizations.
Respectfully submitted
this 2nd day of September 2021,
/s/ Frederick W. Claybrook, Jr.
Frederick W. Claybrook, Jr.
Counsel of Record
Claybrook LLC
700 Sixth St., NW, Ste. 430
Washington, D.C. 20001
(202) 250-3833
rick@claybrooklaw.com
Steven W. Fitschen
James A. Davids
The National Legal
Foundation
524 Johnstown Road
Chesapeake, Va. 23322
(757) 463-6133

